W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-5405

George Luna

Scott Jordan
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Todd Ferguson

Date:

9/16/21

Digitally signed by Todd Ferguson
DN: cn=Todd Ferguson, o=Office of the Attorney General, ou=Office of Criminal Appeals, email=Todd.Ferguson@ky.gov, c=US
Date: 2021.09.16 14:37:53 -04'00'

(Type or print) Name Todd D. Ferguson
Mr.

Ms.

Firm

Office of the Attorney General

Address

1024 Capital Center Drive

City & State

Frankfort KY

Phone

502-696-5342

Mrs.

Miss

Zip 40601
Email

Todd.Ferguson@ky.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

George Luna, #222876, 3001 W Highway 146, LaGrange KY 40032

cc:

